HHS/OIG-Audit--"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of Oregon, (A-07-95-01151)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of Oregon,"
(A-07-95-01151)
October 25, 1995
Complete Text of Report is available in PDF format
(228 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Unfunded Pension Costs
of Blue Cross and Blue Shield of Oregon (Oregon). Oregon did not make contributions
to the pension trust fund for Plan Years 1988 through 1990. Accordingly, Oregon
did not fund the pension costs identifiable with its Medicare segment during
this period. As a result, Oregon accumulated unfunded pension costs of $260,335
as of January 1, 1995. Oregon must separately identify and eliminate this amount
from the amortization components of future pension costs. Oregon agreed that
there are accumulated unfunded pension costs of $260,335 as of January 1, 1995.